C'OCKLE

 

2311 Douglas Street ‘ E-Mail Address:
Omaba, Nebraska 68102-1214 Legal Briefs coniactigeonk lets. com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-164

DAVID SAMARRIPA, ET AL.,
Petitioners,

Vv.
GREGORY KIZZIAH, WARDEN, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE THE INNOCENCE PROJECT,
THE NATIONAL ASSOCIATION FOR PUBLIC DEFENSE, CALIFORNIA ATTORNEYS FOR CRIMINAL JUSTICE,
AND JARRETT M. ADAMS IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served
have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

WILLIAM T. RUSSELL, JR.
Counsel of Record

NICHOLAS GOLDIN

EAMONN W. CAMPBELL

SIMPSON THACHER &
BARTLETT LLP

425 Lexington Avenue

New York, New York 10017

(212) 455-2000

wrussell@stblaw.com

Counsel for Amici Curiae

Subscribed and sworn to before me this 4th day of September, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Lv ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38539
 

| attorneys for Petitioners

Katherine Booth Wellington Hogan Lovells US LLP 202-637-5600
Counsel of Record 555 13th St. NW
Washington, DC 20004

katherine.wellington@hoganlovells.com

Party name: David Samarripa, et al.

 

Attorneys for Respondents |
Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

 

Party name: Gregory Kizziah, Warden, et al.

 

 
